<html>
<title> - A REPORT ON THE UNITED NATIONS REFORMS</title>
<body><pre>[Senate Hearing 107-15]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 107-15

                 A REPORT ON THE UNITED NATIONS REFORMS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JANUARY 9, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                   U.S. GOVERNMENT PRINTING OFFICE
71-537                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         CRAIG THOMAS, Wyoming
BARBARA BOXER, California            BILL FRIST, Tennessee
ROBERT G. TORRICELLI, New Jersey     LINCOLN D. CHAFEE, Rhode Island
                                     SAM BROWNBACK, Kansas
                Edwin K. Hall, Democratic Staff Director
               Stephen E. Biegun, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
Helms, Hon. Jesse, U.S. Senator from North Carolina, opening 
  statement......................................................     5
Holbrooke, Hon. Richard C., U.S. Ambassador to the United Nations     5
    Prepared statement (includes charts).........................    15
    Responses to additional questions for the record submitted by 
      Senator Gordon Smith.......................................    43

                                 (iii)

  

 
                 A REPORT ON THE UNITED NATIONS REFORMS

                              ----------                              


                       WEDNESDAY, JANUARY 9, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room SD-423, Dirksen Senate Office Building, Hon. Joseph Biden, 
Jr. presiding.
    Present: Senators Biden, Kerry, Feingold, Helms, Lugar and 
Hagel.
    Senator Biden. The hearing will come to order. It's been 6 
years since I could say that. And it will be 6 seconds that I 
get to say it. For the press and the public listening, this is 
a bit of a--how can I say it?--a bit of a Senate parliamentary 
excess here. But technically, I am for another 10 or 12 days or 
8 days chairman of this committee. But I am not the chairman. I 
do not claim the right to be the chairman. And I am going to 
shortly turn back this whole hearing to the real chairman of 
the committee, Senator Helms.
    Today, the Committee on Foreign Relations is going to 
review the status of reform in the United Nations. Nearly 4 
years ago under the leadership of Senator Helms, I started down 
a legislative road with him that culminated in what was called 
the Helms-Biden legislation. That was approved in the fall of 
1999. Folks on the left did not like it. And folks on the right 
did not like it. And nobody seemed to like it very much but 
Senator Helms and me.
    This legislation was premised on two key assumptions. 
First, that it is in the interest of the United States to have 
a United Nations that works.
    And second, that the United Nations was in need of reform. 
The legislation that was finally approved held out the promise 
that nearly one billion dollars in arrears of back dues and 
peacekeeping costs would be paid to the United Nations if 
certain reforms were achieved. I want to make it clear we did 
not agree on what the arrears are. We have a figure that is 
lower than--is viewed by some in the United Nations as so-
called contested arrears which will, I believe, never be paid 
by the United States--the contested piece.
    But I made it clear that I would have preferred the funds 
to be provided without conditions and then fought for the 
conditions which I strongly believe are necessary.
    And I have also made it equally clear and plain that in my 
judgment the Senate was not going to provide funds unless there 
were strings attached, unless it was conditional. And a number 
of distinguished Ambassadors to the United Nations--some of 
their countries are here today. And I realized that was a 
bitter pill to swallow and I understand it. We appreciate it. 
We know how difficult it is. But in my view, it was an 
absolutely necessary pre-condition for us to get things back on 
track here in the U.S. Senate.
    Two of the major changes called for were lowering the 
assessment rates that the United States pays the U.N. regular 
budget and for the assessment rates for peacekeeping 
operations.
    In the case of peacekeeping, the rates had not been 
reviewed since the early 1970's. Senator Helms and I believe 
that these reforms though tough were necessary and would help 
put the U.N. on a better financial footing by spreading the 
burden more equitably and quite frankly help tremendously here 
in generating continued support and even in some quarters 
enthusiasm for our participation in the United Nations.
    And from what I have heard, it looks like we got almost 
everything that was asked for. Eighteen months ago during his 
confirmation hearings before this committee, Ambassador 
Holbrooke promised that U.N. reform would be his highest 
sustained priority.
    I might note parenthetically--and I am not being facetious 
when I say this--I truly believe had this very close election 
turned out differently, and I am not complaining about the way 
it turned out, had it turned out differently, I am confident we 
would have Mr. Holbrooke, Ambassador Holbrooke, sitting at that 
very table tomorrow as the nominee for Secretary of State in a 
different administration.
    But Ambassador Holbrooke promised that U.N. reform would be 
his highest sustained priority when this committee confirmed 
him. There were many naysayers, both here in Washington and in 
New York, who said it cannot be done.
    Well, he has done it. And a large share of the credit for 
this accomplishment goes to Ambassador Holbrooke and the able 
team which he is going to introduce after the real chairman 
finishes his opening statement who had the full support of the 
President and Secretary Albright in this process.
    The result is this. Fiscal discipline continues at the U.N. 
And I want to make it clear to the Ambassador, I do not believe 
that the only reason why there has been improvement at the U.N. 
is anything the United States has done. I think had we not said 
a single thing in Helms-Biden, you would have undertaken a 
number of these initiatives unrelated to our share or the dues 
paying share. So I do not want to sound presumptuous like we 
are sitting here and we are the only ones who thought there was 
a need for reform at the United Nations.
    But fiscal discipline continues. A results based budget is 
starting to take hold, and the Brahimi report reforms, when 
implemented, meaning the peacekeeping operations, are going to 
be improved from the ground up.
    Equally important, these reforms and the payment of our 
arrears should bring an end to the debate in this country about 
the utility of the United Nations. It will ensure in my view 
that the United States remain fully engaged in the United 
Nations.
    For that, Ambassador Holbrooke, you have my thanks and my 
congratulations for a job superbly done.
    [The prepared statement of Senator Biden follows:]

           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.

    Today the Committee on Foreign Relations will review the status of 
reform at the United Nations.
    Nearly four years ago, Senator Helms and I started down a 
legislative road that culminated in the ``Helms-Biden'' legislation 
that was approved in the fall of 1999. This legislation was premised on 
two key assumptions--

  <bullet> first, that it is in the interests of the United States to 
        have a United Nations that works;

  <bullet> second, that the United Nations was in need of reform.

    The legislation that was finally approved held out the promise that 
nearly one billion dollars in arrears--or back dues--would be paid to 
the United Nations if certain reforms were achieved.
    I have made it clear that I would have preferred the funds be 
provided without conditions, but I have also made it equally plain that 
in my judgment the Senate was not going to provide the funds unless 
there were strings attached.
    Two of the major changes called for were the lowering of the 
assessment rates that the United States pays for the UN's regular 
budget and for peacekeeping operations. In the case of peacekeeping, 
these rates had not been reviewed since the early 1970's.
    Senator Helms and I believed that these reforms, though tough, were 
necessary and would help put the UN on a better financial footing by 
spreading the burden of funding more equitably. And from what I've 
heard, it looks like we got almost everything we asked for.
    Eighteen months ago, during his confirmation hearings before this 
Committee, Ambassador Holbrooke promised that UN reform would be his 
``highest sustained priority.'' Many naysayers, both here in Washington 
and in New York, said ``it can't be done.''
    Well, it has been done. And a large share of the credit for this 
accomplishment must go to Ambassador Holbrooke and his team, who had 
the full support of the President and Secretary Albright.
    The result is this: fiscal discipline continues at the UN, 
``Results-Based Budgeting'' is starting to take hold, and the ``Brahimi 
Report'' reforms, when implemented, mean that peacekeeping operations 
are going to be improved from the ground up.
    Equally important, these reforms--and the payment of our arrears--
should bring an end to the debate in this country about the utility of 
the United Nations. It will ensure that the United States will remain 
fully engaged with the UN.
    For that, Ambassador Holbrooke, you have my thanks and 
congratulations for a job superbly done.
    At this time I would also like to welcome to the Senate Foreign 
Relations Committee the distinguished UN Ambassadors that Ambassador 
Holbrooke has invited as his guests.

    Senator Biden. At this time now I would like to before we--
I do not think I should do this. I think the chairman should. I 
would like to do one thing. And if you will excuse me from 
standing, I want to return this committee to the status it will 
be for at least another 2 years and turn the hearing back over 
and the gavel over to the real chairman of this committee, 
Senator Helms.
    Senator Helms. Well, thank you, Mr. Chairman. I appreciate 
your calling this hearing. And as you say, we meet today to 
receive a final status report from Ambassador Holbrooke, whom 
we all admire and to whom we are all grateful.
    Even Americans who have never heard of you should be 
grateful to you because you have made a big difference.
    Two weeks ago, Ambassador Holbrooke succeeded at cajoling--
and with maybe a little brow beating--some of our friends at 
the United Nations into implementing several of the key reforms 
that lie at the heart of the so-called Helms-Biden U.N. 
legislation.
    And by the way, parenthetically, my interest in this began 
with another Senator who is no longer a Senator, Nancy 
Kassebaum, who is no longer Nancy Kassebaum. She is Mrs. Howard 
Baker. But anyway, Nancy and I talked about a number of things. 
And one thing led to another. Then Senator Biden and I got busy 
and we met and here we are.
    We are grateful to you. Ambassador Holbrooke, when this 
deal is fully implemented, it will knock at least $170 million 
off the amount that the United Nations bills the American 
taxpayers. More than that, through this debate, we have forced 
the United Nations to make much needed reforms. And we have 
protected the American taxpayer from unknown increases that 
might have happened and been contemplated by the United Nations 
and its supporters.
    And I will never forget a day or two after Kofi Annan 
became Secretary General. He came down here and visited with 
us. And nobody could have been more cordial and more 
cooperative than he was. And he made several commitments. We 
did not ask him to commit, but we asked him to agree to certain 
benchmarks.
    In any case, Mr. Ambassador, we are all proud of you and we 
are pleased to have you here for this one last time as the U.S. 
Permanent Representative to the United Nations.
    Now, as the U.N. has met with us most of the way down the 
road, I am prepared to do the same. Now, releasing the biggest 
payment of money under the Helms-Biden law actually required a 
reduction to 25 percent in the amount that the United States 
pays for United Nations peacekeeping.
    Now, the U.N. missed that target. But on the basis of what 
was achieved, I am prepared to support a technical change in 
that law to permit the so-called Year Two payment. That is to 
say $582 million to be released.
    Let me be clear. I do not concede the principles that the 
United States is at all obligated to pay more than 25 percent 
of the peacekeeping budget of the United Nations. That cap was 
enacted into a separate law 6 years ago with the signature of 
President Clinton. But I do believe that we must acknowledge 
that the important progress that has been made at the U.N. and 
the Congress should respond to it.
    Now then, this hearing and the achievements it will 
highlight represent a close of an important year in the history 
of U.S. and U.N. relations. Just a year ago this month, the 
Foreign Relations Committee went up to New York on an historic 
visit with the United Nations, the first time that a committee 
had ever ventured as a group to visit an international 
institution.
    Now, the U.N. Security Council reciprocated this past March 
with a visit to Capitol Hill. And the proceedings of that 
historic dialog have just been published in a book.\1\ And to 
paraphrase Ambassador Holbrooke, copies are on sale outside the 
hearing room. Seriously, they are free and available on the 
table at the back of the room.
---------------------------------------------------------------------------
    \1\ Accessed through the U.S. Government Printing Office Web site 
at: www.access.gpo.gov/congress/senate/senate//.html
---------------------------------------------------------------------------
    Now, I note that we are joined today by several 
Ambassadors. You saw them. We welcome them. It is testimony to 
their esteem for Ambassador Holbrooke that they are here today 
to support this package. So welcome, Mr. Ambassador. We look 
forward to hearing from you. We are proud of you. And you may 
proceed.
    [The opening statement of Senator Helms follows:]

                OPENING STATEMENT OF SENATOR JESSE HELMS

    Mr. Chairman, thank you for calling this hearing. We meet today to 
receive a final status report from Ambassador Holbrooke on the reforms 
he has achieved at the United Nations.
    Two weeks ago, Ambassador Holbrooke succeeded in cajoling and 
generally browbeating our friends at the United Nations into 
implementing several of the key reforms that lie at the heart of the 
Helms-Biden U.N. legislation.
    Ambassador Holbrooke, when this deal is fully implemented it will 
knock at least $170 million from the amount that the United Nations 
bills the American taxpayer. More than that, through this debate we 
have forced the United Nations to make much-needed reforms, and we have 
protected the American taxpayer from unknown increases that would have 
certainly been contemplated by the United Nations and its supporters.
    This was no simple task and, Ambassador Holbrooke, we are all proud 
of you and pleased to have you here for what will be one last time as 
U.S. Permanent Representative to the United Nations.
    As the U.N. has met us most of the way down the road, I am prepared 
to do the same.
    As you know, Mr. Ambassador, releasing the biggest payment of money 
under the Helms-Biden law actually required a reduction to 25 percent 
in the amount that the U.S. pays for United Nations peacekeeping. The 
U.N. missed that target. However, on the basis of what was achieved I 
am prepared to support a technical change to that law to permit the so-
called ``Year Two'' payment, $582 million, to be released.
    Let me be clear, I do not concede the principle that the U.S. is at 
all obligated to pay more than 25 percent of the peacekeeping budget. 
That cap was enacted into a separate law six years ago with the 
signature of President Clinton. But, I do believe that we must 
acknowledge the important progress that has taken place up at the U.N., 
and the Congress should respond.
    This hearing, and the achievements it will highlight, represents 
the close of an important year in the history of U.S.-U.N. relations. 
Just a year ago this month, the Foreign Relations Committee traveled to 
New York for an historic visit to the United Nations--the first time 
that the Committee had ever ventured as a group to visit an 
international institution. And the U.N. Security Council reciprocated 
last March, with a visit to Capitol Hill.
    The proceedings of that historic dialog have just been published 
and to paraphrase Ambassador Holbrooke, copies are on sale outside the 
hearing room. Seriously, they are free and available on the table at 
the back of this room.
    I note that we are joined today by several Ambassadors serving on 
the U.N. Security Council with Ambassador Holbrooke. It is testimony to 
their esteem for him that they are here today to support this package.
    So, welcome Mr. Ambassador. We look forward to hearing from you.

STATEMENT OF HON. RICHARD C. HOLBROOKE, U.S. AMBASSADOR TO THE 
                         UNITED NATIONS

    Ambassador Holbrooke. Thank you, Mr. Chairman. Thank you, 
Mr. Chairman. I am deeply moved to have been asked to come back 
here again in my last 10 days in this job.
    This is my eighth time I have appeared before your 
committee in 17 months. And since it is my last opportunity to 
appear before you in my current position, I want to begin by 
thanking all of the five Senators who are here, Senator Helms, 
Senator Biden, Senator Lugar, Senator Feingold, Senator Hagel 
and your colleagues for your incredible support. Four of the 
five of you have been to New York, more than once in most 
cases. The fifth of you has been in constant contact with me 
and we have been friends for over 20 years. And I thank all of 
you for your support and your visits and your friendship, and 
your advice and your encouragement.
    And I am very gratified and honored by the comments that 
the two of you have just made. But whatever we are here to 
report on to you today is a shared achievement.
    This was in my 38 years in the government the most unusual 
example of cooperation between the two co-equal branches of 
government. I was nominated by the executive branch, controlled 
by one party, confirmed by the legislative branch, controlled 
by the other, and given a mandate by the legislative branch, 
and full support by President Clinton, Secretary Albright, 
Sandy Berger and others. But the real heavy lifting here was 
day-by-day management of this process. Every one of the five of 
you spoke to ambassadors on our behalf, wrote letters, helped 
us and I hope that this historic collaboration, which also 
included members of other committees but was centered right 
here in this room, will continue. I have so recommended to the 
Secretary designate, Colin Powell. And I believe it's a model 
for what should be done. I also urge you to continue the 
exchange of visits that you began exactly a year ago this 
month.
    Mr. Chairman, I brought with me two groups of people who 
deserve an introduction. And with your permission, I would like 
first my team to stand as a team because whatever we have 
accomplished could not have been done without them.
    In strict protocol rank, my own team--who have never come 
down as a group before and who have worked around the clock, 
many of them going up to a week without sleep--are Ambassador 
Jim Cunningham----
    Senator Helms. If you will stand up, please.
    Ambassador Holbrooke. Jim is my deputy, a career diplomat, 
and I am proud to say General Powell has asked him to remain as 
charge starting next week; Ambassador Don Hays who you 
confirmed as our management Ambassador and did such a fantastic 
job; Suzanne Nossel, who I do not think slept for the last 2 
months; Mary Ellen Glynn, our splendid press officer who you 
all know; Bob Orr who you have seen more of than anyone else 
because he is the head of our Washington office; my other 
deputy Melanie Atwooll who has done the charts that I am about 
to share with you; Deborah Isser who has worked on the charts 
and done such great work; and Derek Chollet who is based here 
in Washington and works on the text of what we do.
    In this group, you can stay standing for the rest of the 
session if you wish.
    I cannot tell you how honored I am to have had this team. 
And I look forward to their continuing to support your work.
    In our efforts, we built very much on the hard work of my 
predecessors, particularly Madeleine Albright, Bill Richardson 
and Tom Pickering and many others. President Clinton, Secretary 
Albright, Sandy Berger and others were heavily engaged in this 
effort. And so were all our ambassadors around the world who 
worked in capitals and I am grateful to them.
    In addition, Mr. Chairman, as you have already mentioned, 
we have here six ambassadors. We would have seven except that 
Sir Jeremy Greenstock, the British Ambassador to the United 
Nations called me from the FDR Drive and said that his Rolls 
Royce had broken down. And I think he should get an American 
car myself, but he sends his regrets.
    If I could ask the ambassadors to also rise. First, 
Ambassador Sato of Japan, my oldest friend in the U.N. system, 
an indispensable participant in this effort and a very 
significant beneficiary of Helms-Biden. Because Japan, the 
second largest contributor to the United Nations, is also going 
down in its contribution. So I think that they should make you, 
Mr. Chairman, an honorary member of the Japanese Diet.
    Senator Helms. I accept.
    Ambassador Holbrooke. This is the first time in history 
that Japan's contribution has gone down since they entered the 
U.N. And that is a direct result of the fact that your reforms 
and the principles you put forward apply to Japan as well. And 
they deserve to go down.
    And now the five Ambassadors who like to call themselves 
the victims. And I am very grateful to them for coming her 
today. Ambassador Son from Korea. Under extraordinarily 
difficult circumstances, Korea made the largest single increase 
of any country in dollar terms, spread out over a number of 
years, and we are very grateful to Korea.
    Ambassador Penny Wensley, whom you all know personally, the 
former Chair of the Fifth Committee and an extraordinarily 
effective representative of Australia.
    Ambassador Dumisani Kumalo, our dear friend from South 
Africa whose contribution has also been lowered as was entirely 
appropriate given the changed economic circumstances in South 
Africa. We strongly supported that.
    Ambassador Arnoldo Listre from Argentina whose country also 
stepped up to the plate and is making a significant increase in 
its contributions to the U.N.
    And Ambassador Valdivieso, Alfonso Valdivieso from Colombia 
who chaired the Rio Group which put forward the compromises 
which led to the breakthrough on peacekeeping, and nothing was 
more difficult. And I am very grateful to Alphonso for his 
extraordinary efforts on behalf of the group. And I am sorry 
that other ambassadors could not come, but they had prior 
commitments. But I am very grateful to our six colleagues.
    Senator Helms. I will reiterate to them what we said here, 
that we are delighted that they came and want you to come 
again, maybe have lunch with us. Thank you very much for being 
here.
    Ambassador Holbrooke. Mr. Chairman, when I began my tenure 
in New York, our situation was somewhat tenuous. The United 
States owed more than a billion dollars to the U.N. We had lost 
our seat on the budget committee. We were within weeks of 
losing our vote in the General Assembly and being suspended. 
And it was weakening our overall foreign policy. Because the 
U.N. is not simply floating off on another planet. It is a core 
part of the way international relations are adjusted. And 
whether we like it or not, we have to deal with it. The arrears 
issue had colored many aspects of our foreign policy.
    In the past 16 months, we have made a lot of progress in 
transforming this acrimonious relationship. We have met almost 
all of the benchmarks you set out for us. The U.N. is more 
streamlined, more efficient and somewhat more effective.
    But I want to say right at the outset that it is still a 
mess in many areas. But it is a much, much better organization. 
And more important than any specifics to me is the fact that we 
have set the path for reform. And my distinguished colleagues 
behind me, both the Americans and the ambassadors, are all 
people committed to reform. And I think you have launched a 
process which will continue and get the support of the next 
administration. We have helped bring the U.N. back to the 
vision of its founding fathers, Franklin Roosevelt and Winston 
Churchill.
    Seventeen months ago, I made some pledges to you under 
oath. And they were basically that I would do my best and I was 
very specific. I want to review first the score card very 
briefly on the non-financial issues. If I could--I think 
Suzanne Nossel can point to the chart \2\ here. I do not know 
if everyone in the audience can see.
---------------------------------------------------------------------------
    \2\ The charts referred to during Ambassador Holbrooke's oral 
presentation are included with his prepared statement beginning on page 
20.
---------------------------------------------------------------------------
    But on the political side, we improved the peacekeeping 
process greatly, Mr. Chairman. And we will be sending a 
peacekeeping force--international, no Americans--to Ethiopia 
Eritrea in a few weeks. We put very complex missions on the 
ground in East Timor and Kosova, and the Lebanese transition 
was undertaken under the most dangerous circumstances 
effectively.
    Still, we had our problems. Notably Sierra Leone. We 
pledged to you a year and a half ago that we would put more 
emphasis on Africa. We have done so. We not only devoted a 
month, our presidency month, to Africa, but the whole year. We 
put into place regimes on diamond certification, embargoes and 
the war crimes tribunal to deal with the situation in Sierra 
Leone. We have improved our crisis response in Africa and we 
have strengthened our efforts to avoid another genocide in 
Burundi.
    Still, I would be misleading you if I said that any of us 
are satisfied with the African situation. That will be one of 
the great challenges of the next administration. The best we 
can say is we prevented the situation from getting worse. I am 
particularly disappointed that we were not able to get the 
Lusaka peace process moving forward in the Congo. But I would 
draw your attention to the fact that also we authorized a 
larger peacekeeping force in both Sierra Leone and the Congo; 
because of our doubts, the U.N. did not deploy that force yet. 
That is not only a financial saving, it is a prudent course. So 
we did not just go willy nilly into areas.
    On AIDS, we had a unique breakthrough. The first AIDS and 
health resolutions in history. And you were present at part of 
that discussion, Mr. Chairman. We are very proud of the fact 
that we had the first Security Council resolution ever on AIDS. 
And my last day as U.N. Ambassador, January 19, next Friday, we 
will have an open session updating the battle against AIDS as a 
symbol.
    Because in the opinion of many of us, myself included--and 
I know Senator Frist, who has been to New York twice and had a 
huge impact up there, would not disagree with this--the AIDS 
issue--not just in Africa--is possibly the most serious issue 
we confront.
    Senator Feingold accompanied me on a ten nation trip to 
Africa in 1999 which was for me--I cannot speak for Senator 
Feingold--but for me a seminal trip in my own intellectual 
development and set the course for much that has followed. And 
I hope that this committee will continue to show its leadership 
on that. And I commend you, sir, and your colleagues for the 
sponsorship of the resolutions last year on this issue.
    On Israel, I pledged to you we would get Israel into a 
regional group. Now, all my predecessors have done this for 40 
years. And we are proud, Mr. Chairman, that we can be the first 
team to come to you and say mission accomplished.
    Israel is in the Western European and Others Group after 40 
years in the wilderness. And this dramatically strengthened 
Israel's position in the U.N. just on the eve of the crisis 
which has now enveloped the region. Some of the ambassadors 
seated behind us, particularly Ambassador Wensley, because she 
is in that group, assisted in this effort. And it was 
historically important.
    And as you can see, it led to Israel's decision to 
voluntarily increase its contribution to the U.N. So that was a 
singular achievement that we pledged to you.
    We also have successfully fought off some very unattractive 
resolutions in the Middle East put forward by people whose sole 
purpose is to use the U.N. as a theater. And we do not think 
the U.N. should be a theater. We think it should be a forum for 
conflict resolution.
    Now, we do not always succeed. Sometimes the General 
Assembly or some fringe group takes a shot at Israel and we do 
not have the votes to prevent it. But never before have the 
opponents of Israel found such continual extremely aggressive 
counter pressures. And even the votes they win, they have won 
by much smaller margins. And we will fight--I believe that we 
should fight every one of these resolutions on its merits.
    We did not have to use the veto yet. Because we have been 
able to handle it without the veto. And I hope that will 
continue. But as I said repeatedly, I think we should use the 
veto whenever necessary to protect our national interests. But 
Israel has come out ahead here.
    Finally, we have made a major effort in trying to break 
through on definitions of refugees to include internally 
displaced persons. We have very happily welcomed Yugoslavia 
into the U.N. Notice, Mr. Chairman, I do not say readmitted. 
This is a new country. It is not a successor state to Tito's 
Yugoslavia. We kept them out for 9 years. We are delighted that 
President Kostunica's government applied under U.N. resolutions 
from 1992-93 and we welcome them in. And I am delighted with 
that achievement.
    And finally, we kept Sudan off the Security Council. Many 
of you were involved directly in that, Senator Feingold, 
Senator Helms particularly and Senator Frist. Had Sudan joined 
the Security Council, it would have been a disaster. And we 
have kept the sanctions regimes in place in Iraq and 
Afghanistan.
    Now, Mr. Chairman, with that, I want to move onto the 
reform issue because I know our time is short.
    On reform, I pledged to you, as you and Senator Helms said, 
that this would be our highest sustained priority. And I would 
simply like to report to you on the commitments I made to you 
on June 22, 1999.
    For 17 months, your legislation has been our road map. As 
you directed, we held the line on U.N. budget discipline. There 
has been no growth in the U.N. regular budget since 1994. That 
is a remarkable statement, but it is true.
    But much more needs to be done. The Office of Public 
Information must be cut. It still has over 800 people. And I 
believe that is inappropriate. I know the Secretary General 
agrees with me on this. And that should be one of our next 
major campaigns.
    Second, as you directed us, we regained the American seat 
on the Budget Committee. This was not easy to do, but we got 
back on it.
    Third, we made progress on all sorts of management reforms, 
many of which are contained as benchmarks in the Helms-Biden 
legislation. Last year, as you asked us to work on, the General 
Assembly adopted results-based budgeting, which will eliminate 
unnecessary expenditures, and ensure that programs fulfill 
their mandates. That was one of your Helms-Biden criteria.
    We also strengthened the implementation of the code of 
conduct, an issue you mentioned in your opening remarks, and 
other criteria, another set of the benchmarks in Helms-Biden.
    We have a personnel evaluation system in place as called 
for in Helms-Biden. We have the GAO study of U.N. allowances 
begun as called for in Helms-Biden. And we have a human 
resource reform movement underway, not in your legislation, but 
added to it.
    On peacekeeping, Mr. Chairman, beyond what you called for. 
We have the first Assistant Secretary General for peacekeeping 
who is an American ever. I insisted on this because it was my 
analysis that you, your committee, would need a point of 
contact within the Secretariat who you knew. Secretary General 
Annan supported this. The head of peacekeeping as you know is a 
Frenchman, a very fine officer, civilian. His deputy now--one 
of his two deputies--will be Michael Sheehan, who most of you 
know, former Assistant Secretary of State, former Army officer, 
well known to both the Clinton administration and to the 
incoming administration. And I am very pleased and I urge you 
to work directly with Michael Sheehan.
    We have also as you mentioned implemented the Brahimi 
report. So that is a great step forward. Now, that is only 
partial implementation. I would say 35 percent of that report 
has been implemented. So I hope the next administration will 
keep the pressure on that.
    And does that cover that chart? Well, obviously the most 
important issue is the financial benchmarks. And we will turn 
to those now.
    On the financial benchmarks, I would say, while Suzanne is 
getting the charts, that I had over 300 meetings one-on-one 
with my fellow ambassadors in New York. Ambassador Hays and his 
extraordinarily dedicated team had over 500 additional ones. We 
made thousands of phone calls. And the effort went way beyond 
the confines of New York.
    In addition to the efforts of you and your colleagues, 
Senator Helms, President Clinton, Sandy Berger, Madeleine 
Albright, Tom Pickering, Larry Summers, Charlene Barshefsky, 
and many others, including every Assistant Secretary for the 
regions, was involved.
    And our ambassadors overseas received over 800 instructions 
from us--800 instructions--by cable. Plus God knows how many 
phone calls--telling them to go in and fight. Some of the 
ambassadors behind us can tell you the backlash of that. But 
the ambassadors who are not here are the ones who can really 
tell you.
    So I want to commend everyone, and especially again this 
committee for the letters that you sent.
    These efforts concluded the morning of Saturday, December 
23 when the General Assembly gaveled through a unanimous 
resolution with the benchmarks.
    The final crescendo was very dramatic. Two hundred 
ambassadors and their delegates sleeping on the floor of the 
Fifth Committee. It looked like a kind of a very high class 
homeless shelter on the upper East Side while they waited for 
instructions, last minute drama with several of the countries. 
But we got it done. We got it done. And it was remarkably 
tiring, exhausting, and in the end, I think, productive.
    Now, what happened? Well, what happened on that morning of 
December--it says December 22 here, but it really was the 23d. 
The U.S. budget assessment and the regular budget went from 25 
percent down to 22 percent. That is the first drop since 1972. 
The last time this went down was under my distinguished 
predecessors, Ambassador to the United Nations, George Bush, 28 
years since our assessment went down. And I will show you the 
historical chart in a minute.
    Second, our peacekeeping budget was revised for the first 
time in history. It was put into place by Henry Kissinger and 
his colleagues in 1973 and never revised. And there was no 
provision for revision. So first we had to get agreement simply 
to talk about it. And to revise it was incredibly difficult. 
And some of the ambassadors sitting here today, Argentina for 
example, really came through. It's not easy for Argentina and 
Korea to do what they did. But they are in the process of 
progressively giving up a discount they have had for 27 years. 
And without them, it could not have been done.
    This reduction is partially in effect now and goes fully 
into effect in 5 months. Therefore, as a result of this, the 
peacekeeping rate for the U.S. would have been 31.5 percent 
this year. Instead, it has dropped immediately by over four 
points and will drop additionally on July 1 and continue to 
drop. And I will show you that chart in a minute.
    We will be in the 25 percent range as called for by 2004. I 
am well aware of the fact that your committee wanted this on 
January 1 of this year. I apologize for not achieving it. We 
came very close and I am enormously gratified at your opening 
statement, Mr. Chairman, of what you just said about the second 
tranche--excuse me, I am not supposed to use a French word 
here. I will not use the word tranche again--the second phase 
of the Helms-Biden. But I will show the chart in a minute.
    Now, 29 countries have accepted increases from 50 percent 
to 500 percent in their peacekeeping assessments. An 
extraordinary thing. And I think we should acknowledge them 
individually at the appropriate time.
    The U.S. savings as a result of this, Mr. Chairman, are 
immediately this year over $100 million and rising to at least 
$170 million within the next 2 years. The U.S. saving is $100 
million immediately. I think $110 million, rising to $170 
million. It's hard to get precise figures because of some 
variables, but it is a very substantial nine digit amount 
already. And there will be additional savings along the line.
    Mr. Chairman, I mentioned the historical record. It is very 
important. In 1946, we were half the world's GNP and we paid 
just under 40 percent of the budget. In 1957, we went down to 
33 percent of the budget. In 1972, under Ambassador George 
Bush's leadership, we went down to 25 percent and then for 28 
years, we never moved. That was the longest period of time 
without a reduction. That period is over. We achieved the key 
benchmark of Helms-Biden.
    Specifically, we went from 25 percent to 22 percent as I 
just said. The second chart here is rather complicated, but I 
would like to put it on the record.
    We had used the 6-year base for financial progress which 
meant the lagging indicators were just too long. The economic 
data was out of date. We would have preferred a 3-year base--
you did not instruct us on this. We just did the best we could. 
We would have preferred a 3-year benchmark, because it is so 
complicated and various countries are effected in different 
ways. For example, 3 years helps one European Union country and 
6 years helps another.
    We came up with a compromise of averaging 3 years and 6 
years. This tiny detail was brutally fought over and almost 
took us down. So I wanted to put on the record that we have a 
4.5 year financial base.
    Now, another thing that is very important, we are going to 
review every 6 years. And we also have built in for the first 
time ever review of the peacekeeping scale.
    Before we get to this chart, I should say one word about 
Ted Turner's contribution here. Because it has gotten a lot of 
publicity. What Ted Turner did, Mr. Chairman, was quite 
remarkable. He understood that the revision downward from 25 
percent to 22 percent of the regular budget was necessary. But 
by the time we got to the end of last year, almost all the 
major countries in the world like the United States had locked 
in their budgets for 2001. And countries like Germany and 
Argentina and Brazil and Korea, all of which wanted to help, 
had already passed their national budgets.
    So when Mr. Turner understood this, he volunteered to make 
up the difference for 1 year in accordance with the law. And if 
your committee, particularly the two of you, agreed to it, as a 
transitional year of grace, it was absolutely critical what he 
offered. The result is that we are at 22 percent. But the 
effect of this can be deferred by the member States until next 
year.
    I want to thank Mr. Turner publicly for his gesture. This 
is not part of his billion dollar fund to the United Nations. 
That is separate and it is not part of the $250 million that he 
and Senator Sam Nunn announced yesterday. It is a separate 
gift. And I do want to acknowledge it here.
    Now, Mr. Chairman, this may be the most important chart for 
future consideration. And it is here to explain what we did on 
peacekeeping.
    Last year, we paid 30.28 percent. If we had not done Helms-
Biden, we would be now assessed 30.38 percent. And, of course, 
since we pay 25 percent, we just keep mounting up the arrears. 
I said a moment ago, we paid 30.28 percent. I misspoke. We were 
assessed 30.28 percent. We paid 25 percent. We would have been 
assessed 30.38 percent this year. Instead, we will be assessed 
28.14 percent for the first half of the year, 27.5 percent for 
the second half, declining to 26.5 percent in 2002, 26 percent 
and a little bit by 2003, and then by 1904, we will be in the 
25's. That is a very good projection. Things can change. 
Switzerland intends to join the U.N. next year. They will pick 
up 1 percent of the budget. Six-tenths of 1 percent of that 
contribution will be reducing us. So that will help 
additionally and so on.
    Senator Biden. Mr. Chairman, could I ask for a 
clarification? If not now, later, can you tell us how much 
money this means? What this means in dollars?
    Ambassador Holbrooke. Yes. Well, I already addressed that, 
Senator. The savings to the United States this year will be 
over $100 million, and by the year after next or earlier, at 
least $170 million. These are low ball figures because the 
benchmark is the regular budget.
    Senator Biden. I apologize if you covered it. I am sorry. I 
had to take that phone call.
    Ambassador Holbrooke. Now, this is the country-by-country 
judgment, Mr. Chairman. I would like to start on the right hand 
side with the blue arrows. Two countries reduced their 
peacekeeping assessments, only two.
    One was South Africa. And I want to stress--because 
Ambassador Kumalo has made the trip from New York today and he 
is one of the leaders of the U.N. system--that we always agreed 
with South Africa that they should be allowed to get a discount 
on peacekeeping.
    I want to praise South Africa. Since the end of apartheid, 
South Africa has voluntarily continued to accept full dues even 
though their economic situation has changed and AIDS has become 
a terrible scourge. When they asked for relief, we endorsed it. 
But at our request, they waited until the end of the year even 
though they could have gotten this as early as March or April. 
And I want to thank them.
    The Czech Republic was a different situation. On the last 
day, they asked for a drop. We did not agree with that decision 
at all, but--and I know that you assisted us in the 
intervention--but we accepted it because they had different 
economic circumstances.
    Now, all the countries with red arrows went up. The first 
group deserves special mention--Cyprus, Estonia, Hungary, 
Israel, Korea, Malta, Slovenia--because they are going to give 
up their entire discount. This was essentially fairly voluntary 
on their parts.
    In some cases like Korea, they have asked for several 
years. And that is entirely appropriate. Again, I underscore 
that in dollar terms, Korea is taking the largest increase of 
any country. Korea's history and the United Nations history are 
inextricably bound from 1950 on. Korea still reports regularly 
to the U.N. There is a U.N. command in Korea leftover from the 
war. And I think Korea deserves special attention as the model 
of U.N. participation.
    The second group, Brunei, Kuwait, Qatar, Singapore and UAE 
did not wish to accept loss of their entire discount, but gave 
up almost all of it.
    And then the others accordingly. And you can see them on 
the chart. And I would like to enter it into the record. We are 
almost finished with the charts, Mr. Chairman. I apologize for 
the length of the presentation.
    Now, I want to single out two countries that have been much 
in the news on this issue, China and Russia. Because I think it 
needs to be noted that, contrary to expectations, both 
countries played an enormously contributory role. In percentage 
terms, not in dollar terms, but in percentage terms, China and 
Russia made the largest increases. China will have a 54 percent 
increase in its regular budget and over a 60 percent increase 
in its peacekeeping budget.
    Now, I know that many people say they should have taken a 
larger increase and that is certainly an understandable point 
of view. But given the fact that consensus is the watch word in 
the U.N. and the consensus was put into place by the Reagan 
administration to protect our national interests and China is a 
permanent member of the Security Council, I think it is 
important for us to acknowledge this fact. And I hereby want to 
state that the Chinese support for this was a critical--indeed 
indispensable--component.
    Russia is an even more extraordinary example. As you will 
see from this chart, because of its economic situation, Russia 
would have made a decline all the way from the top of the first 
bar--1.08 percent in the regular budget--they would have 
dropped to .64 of 1 percent in the regular budget.
    Mr. Chairman, there is no way we could have implemented 
Helms-Biden--no way--if Russia had taken that drop. And they 
had every right to because it was the system.
    Russia--looking at the situation--agreed not only to stand 
firm, but actually to increase to 1.2 percent. So from one 
point of view, the Russians can tell you--and I wouldn't 
dispute it, they doubled what they would have been assessed in 
regular budget. I am not here to defend or criticize countries, 
but merely to give you my end of tour report.
    On the peacekeeping, the same thing. They could have gone 
from 1.3 to .81 of 1 percent. Instead, they voluntarily 
increased to 1.5 percent. And I want to report that to you 
because it is important.
    Mr. Chairman, that concludes the chart. The rest of my 
statement, I would like to introduce into the record and thank 
you for your kind remarks. And especially what you said about 
the second phase of the money. I consider that historically 
important and genuinely newsworthy. And I believe we can now 
say mission substantially accomplished. We need to do a lot 
more reform of the U.N. It needs to be improved. But when I use 
the word m-e-s-s earlier, I did not mean to castigate the 
efforts of our great Secretary General who you and I share high 
regard for, but simply to say that we need to strengthen Kofi 
Annan's hand. We need to continue to try to improve a 
bureaucracy which is still sluggish and not adequately 
responsive. We need to clean up peacekeeping. We need to attack 
the Office of Public Information and its over-padded structure.
    But you, all of you, all five of you, and your colleagues 
have set the path. And I am enormously grateful to you.
    Just to close on the final note, Helms-Biden will save the 
U.S. taxpayers well over $100 million this year. And that 
number will increase continually. And a progressive downward 
trend in peacekeeping after 27 years frozen under a system that 
was outmoded from the day it was put into place is now in 
place.
    It has been a great honor to work with you and in a certain 
sense work for you. And I thank you for this very moving 
opportunity to report to you as we come to the end. Thank you, 
sir.
    [The prepared statement of Ambassador Holbrooke follows:]

            PREPARED STATEMENT OF HON. RICHARD C. HOLBROOKE

    Thank you, Mr. Chairman (Senator Biden), and thank you, Mr. 
Chairman (Senator Helms) for the opportunity to appear before you 
today. This is the 8th time I have appeared before this committee in 
the past 17 months. Since this will be my last opportunity to appear 
before you in my current position, let me say at the outset how 
grateful I am for your support, advice, encouragement and friendship.
    The partnership we have built is highly unusual, but it has been 
highly productive--it has stretched across party lines and bridged the 
two co-equal branches. Through our many meetings, through the frequent 
and extremely important visits to New York made by most members of this 
Committee, as well as other Members of the Senate and House and their 
staffs, and through the two historic meetings between this Committee 
and the UN Security Council, we have helped create a new spirit of 
goodwill and partnership between the United States and the United 
Nations.
    Together, we have forged a new beginning for one of the most 
important relationships in American foreign policy. The lesson is 
clear: open and continuous exchange between the Congress and the United 
Nations has immense value--not only to foster a climate of trust and 
understanding, but in serving America's national interests. I urge you 
to continue it.
    I am here today, at your kind invitation, to give you a final 
report as Ambassador to the United Nations. I have brought with me the 
members of my team who have been indispensable to our accomplishments: 
Ambassador Jim Cunningham, Ambassador Don Hays, Suzanne Nossel, Mary 
Ellen Glynn, Bob Orr, Melanie Attwooll, Deborah Isser and Derek 
Chollet. In this effort, we have built on the hard work of my 
predecessors: especially Tom Pickering, Madeleine Albright, and Bill 
Richardson and many others. President Clinton and Secretary Albright 
and their teams have played a central and indispensable role. I am also 
extremely pleased that with us here today are some of the most 
important Ambassadors to the UN. I am grateful and honored at their 
presence here, which dramatizes the fact that the UN reform just 
achieved was a collective effort.
    Mr. Chairman, I am happy to report to you that today, America's 
relationship with the United Nations is far stronger than it was two 
years ago. To be sure, there is much more work to do. I wish my 
successors all the best, and commit to doing whatever I can as private 
citizen to help them make the U.S.-UN relationship stronger. But it is 
worth reflecting on how far we have come.
    When I began my tenure in New York in September 1999, things were 
very bleak: The United States owed more than $1 billion to the UN, we 
had lost our seat on the UN's budget committee, our voting rights in 
the General Assembly were on the verge of being suspended, and many UN 
member states were openly disdainful of the United States. The arrears 
issue colored every aspect of our involvement at the UN, making it 
impossible for the U.S. to play its rightful leadership role.
    In the past sixteen months, we have made significant progress in 
transforming this acrimonious relationship. We have met most of the 
critical benchmarks outlined by the Helms-Biden legislation. The UN is 
more streamlined, efficient and effective. We have helped make its 
financing more fair and equitable. We have worked to restore confidence 
and trust between the U.S. and the UN. And we have helped bring the UN 
back towards the values instilled in it by its founding fathers, FDR 
and Churchill, half-a-century ago.
    There were several tasks that I pledged to you 17 months ago. Allow 
me to outline our progress in more detail. My staff has produced 
several charts to illustrate our record; I'd like to review some of 
these with you and, with your permission, enter them into the record. I 
will review first the scorecard on political issues, before moving to 
the progress we have made on reform.
    First, peacekeeping. Despite all the good things the UN does around 
the world--through the work of UNHCR, UNICEF, WHO, UNDP and others--the 
UN was created 56 years ago primarily to keep the peace. And no matter 
how vital the work of the specialized agencies is, the UN will 
ultimately be judged by its performance in peacekeeping. In my 
confirmation hearings, I said this would be a priority.
    In every one of my appearances before this committee, I have said 
that UN peacekeeping is in a state of crisis. The UN's record in the 
succeeding months has been mixed at best--there has been progress in 
Kosovo, East Timor, Southern Lebanon and Ethiopia-Eritrea, but there 
have been alarming setbacks in places like Sierra Leone and no real 
progress yet in the Congo. We have worked hard to bring about an 
awareness throughout the entire UN community that the organization can 
and must get peacekeeping right. We have insisted on more clearly 
defined, better-planned, and more realistic peacekeeping missions, and 
have demanded that when the UN puts troops in the field, they get the 
support they need.
    The Secretary General appointed an expert panel, led by Algerian 
Ambassador Lakhdar Brahimi, who conducted a rigorous, thorough, no-
holds-barred review of all aspects of peacekeeping operations. His 
report, released in August 2000, jump-started efforts to make more 
realistic mandates, restructure the UN's Department of Peacekeeping 
Operations, beef up the staff, enhance the leadership, and streamline 
planning and deployment capabilities. With the support of the entire 
membership, the first phase of reforms was endorsed by the Security 
Council and gaveled through the General Assembly, moving at a pace 
heretofore unseen in UN corridors. While the problems plaguing UN 
peacekeeping are not yet fully solved--as illustrated by the 
unacceptable problems in Sierra Leone--its performance is improving, 
and the organization is on its way toward a peacekeeping system that is 
even more efficient and effective. I am especially pleased that, at our 
insistence, one of the senior deputy positions in DPKO will now be 
filled by an American--one who is well-known to you, Michael Sheehan.
    Second, Africa. As I pledged in my testimony in June 1999, from my 
first day in New York, Africa has been one of my highest priorities.
    During the past year, the UN Security Council focused more 
attention on a broad array of challenges in Africa than at any other 
period in the organization's history. This started with the Month of 
Africa during the American Presidency of the Security Council a year 
ago. And in May of last year, I led the first-ever Security Council 
mission to Sub-Saharan Africa. Our sustained focus on the problems 
facing Sierra Leone, the Democratic Republic of Congo, Ethiopia-
Eritrea, Burundi and elsewhere, while not always yielding immediate 
results, have begun to point the way toward possibilities for enhancing 
regional conflict resolution capabilities while forging a better 
defined, more effective role for UN intervention.
    Third, the HIV/AIDS pandemic. Exactly a year ago the UN Security 
Council held its first ever session devoted to a health issue, 
spotlighting the crisis and prompting strengthened commitments from 
numerous quarters toward combating that epidemic. Vice President Gore 
chaired this truly historic session. This effort culminated in the 
unprecedented adoption of Resolution 1308, which exclusively focused on 
the HIV/AIDS pandemic and resulted in the inclusion of an AIDS-related 
provision in all Security Council resolutions on peacekeeping.
    Fourth, Israel in WEOG. In my June 1999 confirmation hearings, I 
told this committee that it was outrageous that Israel was the only 
country left out of a regional group and that I would set out to 
correct this immediately. Israel's exclusion was one of the UN's ugly 
anachronisms; it was a terrible reminder of the UN my predecessor Pat 
Moynihan once called ``a dangerous place.'' Many of my colleagues in 
New York, and many of my predecessors, advised me to leave this one 
alone: Israel would never get into a regional group, they said, and I 
should save my energy for fights I could win. Well, Mr. Chairman, these 
doubters were wrong.
    In September of this year Israel was invited to join the Western 
European and other Group, the group the U.S. is part of. As a result of 
this breakthrough, Israel is now on more equal footing in its 
participation at the UN and is eligible for election to a range of UN 
bodies. As the recent crisis in the Middle East threatened to spin out 
of control, we defended Israel's interests against numerous attempts to 
insert the UN into an inappropriate role in the crisis.
    We also achieved accomplishments in several other areas. On the 
issue of internally displaced persons--a matter of deep personal 
concern to me--our efforts succeeded in prompting UN agencies to 
reorganize and reform their activities to improve operational response 
to the humanitarian needs of these people and other war-affected 
civilians. We have urged our colleagues to recognize these people for 
what they are--internal refugees--and erase the artificial distinctions 
between those fleeing conflict who cross borders and those who don't.
    After Slobodan Milosevic's overthrow in Belgrade, we helped bring 
Yugoslavia into the UN on an equal basis with the other Yugoslav 
successor states. We have pushed for the imposition of sanctions on the 
Taliban regime in Afghanistan and the maintenance of the strict 
sanctions regimes on Iraq and Sudan. We maintained the integrity of the 
Security Council by assuring that a terrorist nation, Sudan, was kept 
off the Council even though it was the official candidate of the OAU 
and would ordinarily have gotten the slot.
    But, Mr. Chairman, by far our most significant achievement is the 
one that I pledged to you would be my highest sustained priority: 
reform of the United Nations.
    As I already mentioned, we pushed the UN to address the significant 
shortcomings in UN peacekeeping. At U.S. insistence, the UN faced the 
fact that absent deep structural reforms, peacekeeping operations would 
continue to succumb to poor management, inadequate resources, 
insufficient planning and other vulnerabilities in the field.
    But peacekeeping reform was just one part of our effort. I pledged 
to implement the law of the land--the Helms-Biden reform legislation. 
On June 22, 1999, I said to you that I ``would do everything possible 
to see this crucial package of reforms implemented.'' For seventeen 
months, Helms-Biden has been our roadmap. So today, I want to touch on 
the range of steps forward we have taken in the area of reform, ending 
with an explanation of the significant breakthrough achieved in 
reforming the scales of assessment.
    As you directed, we held the line on UN budget discipline. The 
biennial budget adopted from 2000-01 was based on zero-growth, fixing 
in place our policy through the end of this year. But much more needs 
to be done, especially in cutting the Department of Public Information 
sharply.
    As directed by Congress, we regained the American seat on the UN's 
Advisory Committee on Administrative and Budgetary Questions, the key 
body charged with making recommendations on UN management and resource 
utilization.
    We also made progress on a series of management reforms, many of 
which relate to the benchmarks contained in Tranche III of the Helms-
Biden legislation. At the end of last year the General Assembly agreed 
to adopt results-based budgeting, which will strengthen it by 
eliminating unnecessary expenditures, and ensuring that programs 
fulfill their mandates. The UN has also strengthened implementation of 
its code of conduct, keeping detailed records of compliance. It has 
made substantial strides in the area of personnel evaluation, doing 
away with a pro forma system and adopting more rigorous standards. A 
private consulting firm has begun a study of the UN allowance system 
that will culminate in further recommendations for reform. Finally, at 
our insistence, the Secretariat has introduced a major package of human 
resource reforms designed to refresh the UN's talent pool and allow 
more career mobility.
    All of these steps are important, and we had to work hard to get 
them. But without question, our highest priority--and most difficult 
goal--was reforming the UN's scales of assessment for the regular 
budget and peacekeeping.
    The task was not easy. For many poorer nations, the very idea of a 
reduction in the assessment ceiling at a time of prosperity in the U.S. 
was understandably anathema. There was great resistance to what some 
saw as an U.S. diktal, and many swore to defeat our efforts in the 
General Assembly.
    Achieving reform of the scales has been one of the most arduous and 
complex negotiating assignments I have ever confronted. It took an 
enormous amount of work. In the last year alone, I had more than 300 
meetings with my fellow UN Ambassadors on reform--seeing delegations on 
this topic literally every working day--and Ambassador Hays and his 
extraordinarily dedicated team had well over 500. We made literally 
thousands of phone calls. But this effort went well beyond the confines 
of US-UN--it was a true full-court press throughout the U.S. 
government. President Clinton, Secretary Albright, Sandy Berger, Tom 
Pickering, Bill Cohen, Larry Summers, Charlene Barshefsky and others 
were intensely involved. Every regional Assistant Secretary of State 
was ultimately engaged. And our Ambassadors overseas were indispensable 
in pressing our case in capitals: in the last year, we sent over 800 
demarche cables to our posts abroad on this subject--an average of five 
per post. And finally, as I mentioned earlier, this achievement would 
have been impossible without the sustained engagement of the U.S. 
Congress. Members of this Committee sent letters praising those who 
aided our efforts, and appealing to others for their support. This 
Committee's role was highlighted in my mind by the historic ``home-and-
home'' visits between this Committee and the UN Security Council. The 
letters and phone calls of many of you, especially Senators Helms and 
Biden, were heard loud and clear.
    Mr. Chairman, these efforts concluded the morning of Saturday, 
December 23, when the President of the General Assembly gaveled through 
resolutions enacting reforms of both the regular budget and the 
peacekeeping scales.
    Our months of negotiation ended in dramatic crescendo. Allow me to 
take a moment to give you a flavor of the intense endgame we endured. 
After months of build-up, by early December the negotiating teams were 
working literally around the clock, plugging numbers into spreadsheets, 
urgently calling and cabling key capitals, devising technical fixes, 
wordsmithing resolution language, and going head to head with the 
remaining recalcitrants in an effort to close in on a deal. We 
maintained a daily log with up-to-the-minute data on the positions of 
all 189 Member States, who their decisionmakers were, their bottom 
lines, and what it would take to bring them around. There were 
continual curveballs thrown our way, with some countries backing away 
from firm commitments, others failing to deliver on what they promised, 
and others waking up slowly to the implications of agreements 
previously reached, and then seeking to re-negotiate. The final forty-
eight hours were described by one ambassador as a cross between a 
slumber party and a torture chamber as exhausted delegates and 
ambassadors camped out around the clock in a UN conference room trying 
to iron out final wrinkles so the resolution could be gaveled through. 
Mr. Chairman, it was a remarkable end, both exhilarating and 
exhausting. I hope to never have to suffer through it again.
    To assure that the official record is as accurate as possible, I 
want to run through the key features of the reform package in some 
detail.
    On the regular budget, most importantly, the U.S achieved a 
reduction in the ceiling from 25% to 22%, the first such change since 
1973. Whereas in 1973 the ceiling reduction was accomplished through 
the accession of several new UN members who made up the difference, 
this year we had to secure agreement among the existing membership to 
absorb increases that would compensate for our reduction.
    We succeeded. We also made the scale more up-to-date, reflecting 
the changes in the new global economy. This will allow the scale to 
better reflect the economic might of large developing countries like 
China, Brazil, Korea and Singapore, while ensuring that the ceiling 
reduction does not impact the poorest countries who lack the means to 
pay more. The membership also agreed to keep the agreed methodology in 
place for six years, avoiding a wasteful and protracted debate in 2003.
    The reforms of the peacekeeping scale are even more complex. The ad 
hoc scale, created in 1973 to fund a single mission in the Sinai but 
locked in place ever since, assigned countries to one of four groups 
based on a one-time political deal. Virtually the entire membership 
retained the 80% and 90% discounts they were first assigned in 1973. 
This was simply nonsensical. We set about to build agreement on a new 
formula that would incorporate neutral economic thresholds, allowing 
countries to move up and down as their economic circumstances 
warranted. It was also clear to us that the gap between countries 
assessed at 20% and those paying 100% of their regular budget shares 
was simply too great, with the result that few countries would 
willingly agree to shift groups.
    Under the historic new scale we have created five intermediate 
groups, allowing countries to transition gradually to higher brackets 
of payment. The scale will be updated every three years to reflect 
economic changes, hopefully ensuring that we never again wind up in an 
outdated financial straitjacket. As soon as the revised scale goes into 
effect, in July 2001, the U.S. rate will decline to 27.58%, a reduction 
of nearly 4 percentage points from where we would have been absent a 
new scale, or over $100 million in U.S. assessments. The U.S. rate will 
continue to progressively decline, and we expect that it will reach 25% 
by roughly 2006 or 2007.
    It is essential that the Committee understand why the new 
peacekeeping scale does not incorporate a 25% rate for the U.S. 
commencing in 2001, as called for by Helms-Biden. All year my team and 
I have had just one focus: reaching 22% for the regular budget and 25% 
for peacekeeping. While we got to 22% on the regular budget, we could 
not quite get to 25% on peacekeeping. It turned out to be impossible, 
although we are well launched in this direction. Here is why:
    Quite simply, we could not make the numbers work--at least not 
right away. The regular budget ceiling reduction will cost the UN 
membership about $34 million annually. This we achieved with immense 
difficulty--and Ted Turner's visionary one-time gift of $34 million, 
which allows other countries to defer the consequences for one year in 
order to adjust their own national budgets. But a reduction in the U.S. 
rate from its projected level of 31.4% for in 2001 to 25% would have 
involved redistributing nearly $200 million annually (under a $3 
billion peacekeeping budget). Under the UN's ad hoc peacekeeping 
assessment system, which gave 80%-90% discounts to most of the 
membership, and because of the doubling of the peacekeeping budget in 
the past few years, this would have involved assessment increases of 
close to 1000% for dozens of countries in a single year. Getting 
agreement from so many to accept such large increases right away was 
impossible. Their budgetary authorities--parliaments like the U.S. 
Congress--simply would not agree to absorb these jumps immediately. By 
late December, their 2001 budgets had already been set. While many 
countries were prepared to pay more, they repeatedly made clear that 
they would need time to make the adjustments.
    While the new scale is not perfect, it represents a major step 
forward. Russia, China, Singapore, Korea and dozens of other Member 
States will pay far more than they would have under the old system, 
while the U.S. and Japan--the two largest contributors--will pay less. 
And I want to stress that the burdens on those that cannot afford to 
pay more will not be increased.
    During the past year we focused on achieving the assessment 
reductions. With this issue pending, we were unable to attain a full 
and final settlement of all categories of arrears. Even so, we were 
able to make progress in pinning down one important area of arrears, 
those relating to the UN's tax equalization fund. We have reached an 
understanding--confirmed by an exchange of letters--with the UN on the 
origin of those arrears and hope that the problem can be worked out in 
the near future. This will represent a substantial step towards dealing 
with the so-called ``contested arrears'' issue.
    The U.S. delegation always made clear to our colleagues in New York 
that absent achievement of the full letter of the Helms-Biden 
benchmarks, we could not be assured of the ability to pay down any U.S. 
arrears. Despite that, in light of the tremendous effort we have put 
into the reform effort--and the considerable progress we have made--we 
respectfully hope that Congress will decide to release the $582 million 
appropriated under Tranche II of the Helms-Biden legislation, and to 
lift the cap on our payments for UN peacekeeping. We also suggest that 
several technical fixes that may be necessary to enable achievement of 
the Tranche III benchmarks. I will not go into detail on the third 
point here, but instead ask that the Committee delegate to staff the 
task of meeting with State Department officials to go over these 
points.
    Mr. Chairman, payment of $582 million in U.S. arrears to the UN 
would signal dramatically to the membership and the world that the 
ongoing saga of U.S. arrears is well on its way toward being solved. It 
would provide President-elect Bush and Secretary-designate Powell a 
solid ground on which to develop their relationship with the UN. 
Likewise, lifting the cap on U.S. contributions to peacekeeping will 
prevent my successor from facing the awkward situation of knowing that 
every time he or she votes for a new peacekeeping mission, he or she is 
adding new U.S. arrears. To my mind, because of the goodwill that has 
built this year, these two vital gestures would start an irreversible 
course that will ultimately lead to a full and final settlement of the 
arrears controversy.
    Mr. Chairman, with only ten days left in my tenure, I leave it to 
you and the next Administration to build on this new spirit of 
cooperation and goodwill between Washington and New York. I am 
confident that we can succeed in making the U.S.-UN relationship even 
stronger; in both the next Administration and this Committee, the 
future is in very capable hands.
    I leave my position as confident as ever that the United Nations 
remains absolutely indispensable to American foreign policy. It is, as 
they might say on Wall Street, ``net-net'' for American interests. But 
at the same time, I am even more convinced that the UN is deeply 
flawed, and that we must fix it to save it. I know that the 
distinguished Secretary General of the UN, my good friend Kofi Annan, 
shares this view. If you release the $582 million in Tranche II and 
accept the assessments in the new peacekeeping scale, I am convinced it 
will not only strengthen the hand of the incoming Administration, but 
will also help Secretary General Annan in continuing the reform 
process. I urge you, and other Members of the Congress, to complete 
this success. Mr. Chairman, working together, we have made considerable 
strides in doing our part. Together, we have made the UN a better 
place, one that serves the people of the world more efficiently and 
effectively. I am grateful to you and President Clinton for affording 
me the opportunity to play a part in this historic achievement.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Helms. Mr. Ambassador, I thank you. And I take this 
occasion to thank the Chairman, Mr. Biden. It has been fun 
working with him, but there are things yet to be done.
    It has been suggested that since we probably are going to 
have some other Senators who have been tied up with other 
meetings that we start off with a round of 5 minutes. Senator 
Biden.
    Senator Biden. No, you go ahead.
    Senator Helms. Mr. Ambassador, under the 6-year assessment 
scale for peacekeeping finalized last month, how firm do you 
think your predictions are of U.S. peacekeeping dues continuing 
to decrease below the 26.5 percent rate that was locked in for 
2003?
    Ambassador Holbrooke. Well, if you are asking me to give a 
guess, a predictive guess, for 2004, I would say they are 
substantially better than 50/50. But I cannot say 100 percent. 
We have based the figure for 2004 on the assumption Switzerland 
will join the United Nations. They have given us a written 
letter to that effect which I am happy to produce and introduce 
into the record. Plus, the progressivity that is built-in. 
Plus, the commitments made by countries.
    I believe, Mr. Chairman, that we can actually do better 
than that. But the key variable is American leadership. You 
said at the outset, as did Senator Biden, that it might not 
have been done without the current team in New York which is 
seated behind me. A lot of the things we did people said could 
not be done. We did them working with you.
    The answer to your question is will the next administration 
make reform its highest priority as we did? We pledged it to 
you and we kept our word. If they continue this pressure, they 
can do better than our charts.
    Countries like Mexico, Brazil and Chile and Russia and 
China all have the capability to continue rising. But it 
depends on their economy. You see the criteria are keyed to per 
capita income to some extent. So if some countries have 
collapsed economies, it may effect them. But it also is key to 
American commitment.
    Senator Helms. Do you think we will reach 25 percent in a 
couple of years?
    Ambassador Holbrooke. We think we will be in the 25 and 
change range 3 years from today if Switzerland joins, if the 
economies remain relatively stable and if the next 
administration makes it a sustained priority. Yes, sir.
    Senator Helms. You mentioned Ted Turner's $34 million gift. 
Is that setting a precedent of any kind?
    Ambassador Holbrooke. Well, it is unprecedented. So in one 
sense, it did set a precedent. I need to make clear that 
Turner's gift was very skillfully presented. He did not give 
the U.N. $34 million. He made available to the U.S. Government, 
with your prior concurrence, $34 million contingent on a deal 
for a one time only payment. I do not think it should be a 
precedent. I do not think it is something you want to see 
repeated. I do not think going to the private well for this 
kind of thing is a great idea. But in this case, as a bridging 
gift, I think it was very important.
    Senator Helms. I guess what I am asking you, Turner's 
contribution was calculated to be from a member State, is that 
correct? It was to the United States.
    Ambassador Holbrooke. There is a creative ambiguity here. 
He gave the money to the United States State Department. The 
State Department will give it to the U.N. It will be credited 
to the United States. But as a condition of the deal, we will 
be billed at 22 percent.
    By the way, you talk about unprecedented. I would simply 
remind people that in 1946 or 1947, the Rockefellers bought the 
land on the East River and gave it to the United States to give 
to the U.N. So there is a very important historic precedent. 
The reason the U.N. is in New York, in the United States, is 
because of that private act of generosity. And there have been 
other similar acts along the line. But this is the first time 
there was a budget intervention. And I would hope that it is 
never necessary again. But it made a difference.
    Senator Helms. Senator Biden.
    Senator Biden. I think that is an important point to make. 
And I would like to ask at this point to enter into the record, 
there is legislation that exists relative to the conditions 
upon which gifts can and cannot be accepted.
    And section 25 of the State Department Basic Authorities 
Act which as the name implies provides essential legal 
authority under which the Department operates--provides the 
Secretary of State to accept ``gifts for the benefit of the 
Department or for the carrying out of its functions''.
    Then it goes on. There are a number of other sections. But 
the bottom line is nobody can set a condition on a gift in 
terms of what we do. They can set conditions that are 
conditions based on what it achieves. So the condition here is 
that we are at 22 percent benefiting us. But we could not set a 
condition saying, and by the way, if you name the building 
whatever.
    And so I too would like to thank Mr. Turner coming along at 
a propitious moment to allow this to be nailed down.
    I want to ask a little bit more about--because I guess for 
the 3-minutes or so I have remaining, I have spent an awful lot 
of time with you. And I have had the privilege--and I again 
thank the ambassadors for allowing me the privilege of 
speaking, as you did, Mr. Chairman, before the Security 
Council. And then so many of them assembling to hear me out in 
private meetings as well as semi-public meetings. And I want to 
thank them.
    So I pretty well know this deal. I would like you to talk a 
little bit more about some things that I think are quite 
frankly almost as extraordinary that have occurred. We were not 
on certain committees. We were not positioned in certain ways. 
The U.N. instituted a results based budget several years ago. I 
would like you to tell me about that, the Brahimi report. Tell 
me about some of the institutional reforms that are being taken 
not conditional--not conditional reforms in terms of our 
dollars, but to try to lay out what I think is an emerging 
positive picture of a United Nations doing really what Senator 
Helms and I want to see done. There are a lot of other 
conditions we could have laid in there if we were setting 
conditions. But the bottom line is we want this like every 
major corporation in the world, every government in the world, 
reforming to fit the 21st century. Tell us about some of the 
other things beyond those two benchmarks.
    Ambassador Holbrooke. Well, Senator, on the results-based 
budgeting that was in Helms-Biden, you said we went beyond it 
in some areas like Israel and the WEOG. That was not in Helms-
Biden.
    Senator Biden. What does WEOG mean?
    Ambassador Holbrooke. Sorry, excuse me. Getting Israel into 
a regional group was not in your benchmarks, but I pledged to 
you we would seek it. I believe that it was important for many 
reasons. It improved U.S. support for the U.N. It strengthened 
Israel. And Israel then voluntarily gave up its discount. The 
results-based budgeting was in Helms-Biden.
    Your benchmarks, your conditions, were very clear. No 
borrowing authority. Done. Supremacy of U.S. Constitution. 
Done. No U.N. sovereignty. Done. These were from the first 
phase. No U.N. taxation. Done. No standing Army. Done. No 
interest fees. Done. No U.S. real property rights. Done.
    In the second set of conditions, U.N. assessment rate to 22 
percent. Done. Four and a half year base. Done. Peacekeeping 
assessment ceiling. Done. And so on and so forth. Personnel 
issues, 80 percent done. Code of conduct. Done. Personnel 
evaluation system. Done. Payroll audits, 80 percent done. Full 
compliance by this summer. Some of this goes beyond your 
benchmark. Some is in it. Allowance reports. The study has been 
initiated by the U.S. Government. The GAO reports to your 
committee have shown a steady improvement in management by the 
way. We kept the zero nominal growth in the budget. And we got 
back in the Budget Committee.
    Senator Biden. Speak for the last 30 seconds about what 
that means to be on the Budget Committee. As a matter of fact, 
is the chairperson of that committee one of the ambassadors 
here?
    Ambassador Holbrooke. Unfortunately, Ambassador Rosenthal 
from the Fifth Committee could not come today. But Ambassador 
Wensley was the head of the Budget Committee last year when we 
achieved the first set of benchmarks. And she remains----
    Senator Biden. Tell us what that committee does and why 
that is important.
    Ambassador Holbrooke. I do not even know what they do. They 
spend all night sitting in that room. I am just teasing. Penny 
who went without sleep for 2 weeks. That is the Budget 
Committee of the U.N. Now, there are two parts to it. There is 
the so-called ACABQ, the small group that you have to be voted 
on.
    And there is the Fifth Committee which is a committee of 
the whole. We are all on Fifth Committee and that is the one 
Ambassador Wensley headed and Ambassador Rosenthal now heads. 
The committee that you are referring to, the so-called advisory 
committee of the United Nations, the ACABQ, is a highly 
questionable organization in my view. I do not like the way it 
functions. But we were not on it.
    And you said in your legislation if you do not get back on 
it, no money. And I thought you were absolutely right. How can 
the largest contributor not be on it? How did we get off it? I 
do not have any idea how we were voted off it. But it happened 
in 1996. And in 1999, we got back on it.
    I think that is a very important point. I thank you. I have 
gone over my time limit.
    Senator Helms. Do not feel inhibited by the red light of 
the timer. It does not apply to you. It applies to us. Did you 
finish your final thought?
    Ambassador Holbrooke. Yes, sir.
    Senator Helms. Thank you. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. I join my 
colleagues, Ambassador Holbrooke, in applauding the remarkable 
achievement by you and your team during the 17 months and 
especially the presentation you made this morning. I think it's 
an extraordinary historical achievement. And I applaud the 
Chairman and Senator Biden for going to the U.N. and for 
inviting U.N. Ambassadors to come here, as been mentioned, in 
March. That was very important for our understanding and we 
hope for theirs. And I would also applaud Ted Turner for his 
contribution. I had the privilege of being with him yesterday. 
I understand his motivation from his own testimony and his 
enthusiasm for the United Nations. It was fortuitous that he 
was in the same hotel as you were having another meeting when 
the opportunity arose.
    Ambassador Holbrooke. It was not an accident, Senator.
    Senator Lugar. Let me just say, however, my analysis of 
what you have achieved leads to two pieces of legislation or 
maybe one piece that incorporates amendments to the Helms-Biden 
legislation. As I understand, we will need to pass a resolution 
or a piece of legislation to release the funds. That is the 
$582 million--because the peacekeeping assessment rate that 
Ambassador Holbrooke negotiated for this year is just over 28 
percent rather than the 25 percent required by law. So, as a 
result, that amendment would be required.
    And then second, the committee would need to pass an 
amendment to adjust the 25 percent appropriations cap for U.N. 
peacekeeping that was set in 1994. My understanding is if we do 
not do this, if we do not revise that cap, we will incur new 
arrears. And then we begin the process all over again.
    My direct question to you, Ambassador Holbrooke is my 
understanding of the two items of legislation that I have just 
enunciated correct? And second, what will be the consequence if 
this committee and this Senate and this Congress does not adopt 
an amendment to Helms-Biden that incorporates those two 
articles?
    Ambassador Holbrooke. First of all, Senator Lugar, your 
statements are completely correct with one slight amendment. 
You said 28 percent. This is the transitional 6 months. Our 
real fixed rate is already down to 27.5 percent.
    Senator Lugar. Fair enough.
    Ambassador Holbrooke. And so we did over 50 percent 
immediately. And it will decline. And back to Senator Helms' 
question, how certain am I of the out year 2004? I am more 
certain of that I think than we can be of many of our CBO 
projections here in the Senate, Mr. Chairman.
    Senator Lugar. My point was that because it was not 25 
percent, you need the first part.
    Ambassador Holbrooke. Well, I think on the first part of 
your question--first of all, I agree with everything you said. 
Second, I cannot stress to you how important it is to me and my 
U.N. colleagues, the ambassadors here, to have heard you and 
Chairman Helms this morning say that you were moved to release 
the second amount of money. That I am sure that they are going 
to be racing for the phones as soon as they get out of here 
because that is great news. And I believe that it will 
dramatically strengthen American national interests. I am not 
talking about the U.N. I am talking about United States 
national interest. And that money has already been 
appropriated. So we are not giving the U.N. any new money. We 
are saving ourselves $170 million and releasing money that is 
already been set aside.
    Now, on your question about the rest of it, on the 25 
percent cap, I know there are differences of opinion here. And 
I think it is very important the next administration look at 
this carefully. What you have said is very important and it 
needs to be underscored. Despite everything else we are doing, 
we will start to buildup some new arrears. And the arrears will 
be precisely the difference between 25 percent and whatever the 
blue bar is at the time. And so the arrears will start to grow 
again at a much, much smaller rate. And under a controlled 
situation. But they will mount.
    And it is, therefore, my personal view--and here I can 
speak only for myself because I will be a former government 
official in a few days. And I want to answer you in the spirit 
of this extraordinary collaboration between myself and this 
committee. And with all respect to Senator Dole, whom I greatly 
respect and admire. It is my considered view that you should 
re-examine that cap.
    With all due respect, you have achieved your goal by 
putting it down. And I do not believe that the U.S. national 
interest is served by leaving it on and letting the arrearages 
begin to accrue again. The 25 percent was a symbol to the U.N. 
that we did not like the waste and sloppiness.
    But it was also in a certain extent an arbitrary number. 
And with this scale sliding to 25 percent as the chairman 
indicated, I believe that you should act--and as Senator Helms 
said, this is not part of Helms-Biden. This was in the--if my 
memory is correct, sir, this was in the CJS appropriation. But 
I may be wrong on that. Is that right, Barbara? It was in the 
CJS appropriation.
    I am getting a negative head shake here from Ed Hall. So if 
I misstated, please forgive me, sir. But it is my understanding 
that it was a separate piece of legislation. Now I am getting 
an affirmative nod from Mr. Hall. So I feel better.
    It was put into place in 1994 if I am not mistaken. It 
served its purpose. With particular reference to the generous 
remarks of Senator Biden earlier and with all deference to 
General Powell who will have to address this on behalf of the 
new administration, I believe that the United States national 
interest would be strengthened if the cap were removed and 
there was some adjustment made so that we did not just simply 
keep adding to arrears. Every time we voted for peacekeeping 
resolutions, when it was in our national interest. We supported 
the troops in East Timor. We supported the troops in Kosova, on 
the Lebanese Heights. And each time we did that, we were 
increasing our arrears. And I hope that is responsive to 
Senator Lugar's key question.
    Senator Biden. Mr. Chairman, with your permission may I ask 
for a clarification? Because as I understand it, Ambassador 
Holbrooke, there are two issues. One is getting a release of 
the second phase of the money that has been appropriated which 
is the $500 million plus dollars.
    In order to do that, Senator Helms, as I understand it said 
today, that he is willing to allow that to go forward. The only 
legislative thing we have to deal with that--and I would ask 
Steve Biegun to correct me--our chief of staff of the committee 
here--is that we would have to amend Helms-Biden, not the Dole 
provision, but Helms-Biden, to allow that money to be released.
    Now, there is a second issue. While we are getting the 25 
percent, we will be accruing arrearages again because we are 
not going to pay above 25 percent as long as Dole is still law.
    Ambassador Holbrooke. And it is in the 1994 State 
Authorization bill.
    Senator Biden. Right. So that is the law for 1994. That is 
something that I do not know what the chairman intends. But my 
guess is the new administration will have to go back and assess 
whether or not new State Department legislation that will be 
coming up, whether they want to keep that cap or not keep the 
cap, on that issue. But the cap stays.
    We are not saying we are going to move--if I am correct--to 
release the Dole cap. That stays in place. The only thing I 
understand that we are saying--at least we meaning the chairman 
and me--is that we would amend Helms-Biden to release the 
second phase of the money. And so the cap is a separate piece 
of legislation.
    All that mens is we release the second amount of money that 
because the conditions have been substantially met for the 
second--as the foreign policy types say--the second tranche. Am 
I correct in that?
    Ambassador Holbrooke. There is one thing you said I am not 
sure is quite right. You do not need to address the cap to 
release the money.
    Senator Biden. No, I agree. I am not saying that. That is a 
separate issue. But we have to address the cap to deal with 
arrearages in the future, correct? If we wish to.
    Ambassador Holbrooke. That is an issue for you and the next 
administration to decide. I just wanted to respond to Senator 
Lugar's question.
    Senator Helms. We can let you expand your answer if we get 
into a sticky point. But I think this is important. There are 
two laws in place as I understand it. Law One: Helms-Biden. We 
have agreed to let Year Two money be released even though the 
U.N. will not hit 25 percent until 2004. That is right, is it 
not?
    Ambassador Holbrooke. Yes, sir.
    Senator Helms. Law Two: 25 percent limit on U.S. 
contributions to peacekeeping. This is a separate law that we 
have not agreed to.
    Ambassador Holbrooke. That is right.
    Senator Helms. Now, this can be debated later if Senators 
wish to do it, but it is not going to have immediate effect as 
far as I am concerned.
    Senator Biden. Right. That is all I was trying to say. You 
said it better and quicker.
    Senator Lugar. Mr. Chairman, may I just interject with a 
quick comment?
    Senator Helms. Yes, sir.
    Senator Lugar. As I understand your negotiations in good 
faith as you proceeded with the other countries, they 
anticipated the cap was going to be released.
    Ambassador Holbrooke. They sure hoped so.
    Senator Lugar. Well, I think it was more than a hope.
    Ambassador Holbrooke. We never made a commitment because 
that is your constitutional responsibility.
    Senator Lugar. We have this argument among ourselves. And I 
appreciate the distinction made in the two laws. But I would 
hope that the chairman and the ranking member would sponsor an 
amendment to the bill and get this squared away. I think 
failure to do that courts a lot of difficulty which is 
unnecessary.
    That is why I have tried to make the point as markedly as I 
could. I think both things need to be done. And I appreciate 
that one fix may be done. And I think the other change ought to 
proceed. I would certainly support the chairman and the ranking 
member if they were to offer such an amendment.
    Ambassador Holbrooke. And I simply want to repeat my answer 
to you which is speaking as a soon to be private citizen, I 
believe that what you are discussing would be in the national 
interest. But I completely agree on the legislative record that 
Senator Helms is making a critical differentiation between what 
he has said and this issue. And I would further say that in 
terms of the United Nations, no commitments were made, not even 
hinted at. But I don't have any question that all 189 other 
members of the U.N. would hope that you would reconsider. And I 
think the next administration and you must decide how to 
proceed on this.
    Senator Helms. The point is we cannot and should not make 
any changes except by the Senate taking action in due course.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman. 
Ambassador Holbrooke, I enjoyed our chance to talk yesterday 
about this achievement and I want to congratulate you. It is 
remarkable. I would not have thought that this was possible a 
year ago when we met at the U.N. as the chairman talked about. 
I am very impressed. I can only imagine how difficult winning 
some of these concessions was. And I also want to welcome the 
ambassadors visiting us today. I appreciate your presence here 
and your cooperation with all of us in this effort. It is 
really something I am looking forward to sharing with my 
constituents back home.
    And in that spirit, I want to thank both of the Chairmen 
here. Because there is no question you both put tremendous 
personal effort into this, both here and also at the U.N. 
making this a more accountable and more efficient and more 
equitably funded organization. And I have had a chance to 
witness first hand both of your efforts on occasion. And I 
think it is a real model for all of us to follow as members of 
this committee.
    I also want to take this opportunity to say a bit more 
about Ambassador Holbrooke. His accomplishments go well beyond 
this achievement on U.N. dues. He has been remarkably effective 
in many areas from Africa to Indonesia to the global AIDS 
crisis.
    Ambassador Holbrooke, you have seized on some very 
difficult and often neglected issues. You recognize that these 
issues do have serious national interest consequences for our 
country as well as for the countries effected. I have greatly 
enjoyed watching you work. And I want to join in the 
complements to your staff. I have rarely worked with a better 
group of people. And I say that on behalf of myself and my own 
staff. It has been a great pleasure.
    Negotiating changes in the assessment scale at the United 
Nations, while certainly not glamorous, will be a very big part 
of your legacy. And it is my hope that your efforts will allow 
the United States and U.N. relations to move forward in a 
positive and cooperative manner.
    I would like to just join in the conversation that was 
occurring a few minutes ago initiated by Senator Lugar. I like 
to think I came here a few years ago very intent on having some 
success on the issue of making sure our public dollars are well 
spent.
    And part of this had to do with the U.N. And part of it had 
to do with, I think, a sometimes very tough stance that was 
taken by the chairman. And I commend him for it. And I think 
the burden sharing element of this is critical. So I think all 
of that is a plus.
    But I would weigh in on the side of Senator Lugar's 
comments. Of course, within the proper legislative process, we 
should eliminate this cap. This is such a wonderful achievement 
that you, Senator Helms, deserve the lion's share of the credit 
for. I think everyone, even the toughest fiscal critic in this 
country, would say that you have achieved this victory and that 
we should try to eliminate that piece. Of course, Senator Biden 
as well.
    Chairman Biden. I would not have done it unless he made me.
    Senator Feingold. So, let me simply weigh in and then offer 
my help, as did Senator Lugar, if that is the direction the 
chairman chooses to go.
    Ambassador Holbrooke, just briefly say a little bit about 
what this whole process might mean in terms of the discussion 
in some quarters to revise the structure and membership of the 
Security Council. Would this impact on that issue at all?
    Ambassador Holbrooke. I do not think the two issues are 
related, Senator Feingold. But let me first say--I mean, it is 
a very important issue, Security Council reform. Some of the 
countries sit behind me, most notably Japan. For Japan it is a 
burning issue. And in April of last year, we adjusted our 
position to make possible a larger number of members of the 
Security Council provided it would not reduce efficiency.
    There are so many cross-cutting elements in the U.N. 
Germany, Italy, Pakistan, India, Brazil, Argentina, Mexico, 
Chile, Nigeria, Egypt, Algeria, South Africa, all have 
different views on this. And I have just begun to scratch the 
surface of the large countries. Then you get to the smaller 
countries. Many countries like Canada and the Netherlands want 
a larger Security Council, but no more permanent members.
    So you have different views. And the next administration 
will have to address this. I share Senator Helms' view that the 
Security Council integrity should be our paramount concern and 
that the veto we and the United Kingdom, France, China and 
Russia have is vital to our national interest.
    On your personal comments, I want to thank you for the kind 
words you said about me and repeat again how seminal our trip 
was to Africa. And I also want to commend Senator Frist for his 
efforts on Africa, although he is not here today. He was our 
most frequent visitor to New York of all Members of the Senate, 
and our most engaged ambassador on African issues in terms of 
visits. Senator Feingold and I spent the most time together 
overseas and it really did make a difference.
    On your remarks, Senator Feingold, about Senator Helms, you 
really expressed it better than I did. I think that--I know 
that some people think that the U.N. is not in the U.S. 
national interest. And they think we ought to just do 
everything we can to get rid of it. They have a 
misunderstanding about it.
    For all its warts and flaws, the U.N. serves our national 
interests. But those warts and flaws need to be dealt with. And 
I think that long after I am gone from this job, I hope that 
you will continue the effort to seek reform.
    Now, we can argue about the reforms. I support Senator 
Lugar's proposals on the cap, but that is a separate issue. 
Today we mark an historic moment. Because with your declaration 
in the opening statement, we have crossed a great bridge. We 
really have. And I was inadequate in my statement about your 
personal role at the outset, Mr. Chairman. And I just want to 
echo what Senator Feingold has said.
    We may have done something difficult in New York, but you 
are the one who told us to go do it. And it was your mandate 
and your pressure and your personal efforts in coming to New 
York and inviting the Security Council here that really were 
the breakthrough. Thank you, Mr. Chairman.
    Senator Helms. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Ambassador 
Holbrooke, I wish to associate myself with the heaping on of 
accolades in recognition and praise and thanks to you and your 
team for what you have accomplished. It has been remarkable. It 
has been in the national interest of this country. And it has 
been in the interest of the United Nations and our allies. And 
we recognize that. I think America recognizes that, realizing 
we have much to do.
    I wish to also recognize and thank, as my colleagues have 
done this morning, your colleagues from the United Nations that 
you have brought with you this morning. Thank you for your 
leadership and cooperation. And we look forward to working with 
you over the next few years as well.
    I know that you will feel a great loss in Ambassador 
Holbrooke being gone, but his aura and spirit will be with us. 
And I suspect he will not just fade away like old soldiers do.
    You said, Ambassador Holbrooke, just a moment ago that the 
United Nations is a very critically important component of our 
world. And I want to address that for a moment and give you a 
chance to embroider upon that. I think it may well be possible 
that the United Nations today is more important and more 
relevant than it was when it was formed over 50 years ago.
    Like any institution, we recognize that institutions must 
adapt and adjust with the challenges of our time. And that 
means constant reform. That means constant management. That 
means constant effort to make an institution important and 
relevant.
    And with that--and I know you are hesitant, Mr. Ambassador, 
to ever give advice to anyone, especially an incoming 
administration, but drawing from your vast reservoir of foreign 
policy experience, I would be very interested in hearing from 
you what you believe in its most global term, what is America's 
greatest challenge to its national interest over the next few 
years?
    Ambassador Holbrooke. Well, thank you first of all for your 
kind words, Senator Hagel, and your efforts and your visits to 
New York and your personal support of me and our shared common 
experiences going back to a distant Southeast Asian arena when 
we were younger.
    I have had very good direct and private talks with General 
Powell. And he knows my views in detail on these issues. And I 
would not presume to characterize his views or our responses. 
But I have been a friend of his for a long time. I am very 
enthusiastic about his appointment. And he will have my full 
support as well as my continued friendship. I think it is a 
superb choice for Secretary of State.
    Two points about the U.N. and the largest challenges facing 
us. The U.N.--I keep saying it is flawed, but indispensable. 
But it is not the center of American foreign policy. It is part 
of our foreign policy, but not its center.
    Some problems can be dealt with in the U.N. framework and 
solved. Others can be dealt with in the U.N. framework and 
helpfully. And others should not go near the U.N.
    I do not believe, for example, that the U.N. is the place 
to resolve the Middle East problem. It cannot do it. The U.N. 
is too much used for theater for a forum. And I have begged 
people, including Chairman Arafat when he came to New York, to 
keep the U.N. not as the place you start to discuss the Mid-
East, but as the place you ratify agreements reached elsewhere.
    On the other hand, you asked about the most important 
problems in the world. I have often said, and I will say again 
tonight at the Harvard AIDS Awareness Leadership Awards Dinner 
where I will be speaking tonight, that I believe that AIDS is 
the biggest problem we face in the world today. That is why I 
particularly wanted to thank Senator Helms for his historic co-
sponsorship last year, and that of Senator Boxer and Senator 
Gordon Smith and the rest of you, of Senator Kerry's 
legislation on that.
    If that problem is not checked, it will undermine the 
social, economic and political fabric of society, not just in 
Africa, not just in South Asia, but everywhere. And the cost 
will be immense. It is not only the worst health crisis in 600 
years. It is more than a health crisis.
    So I remain of the view that with all other problems, the 
nuclear proliferation problem, that Senator Lugar, excuse me--
that Senator Lugar, Sam Nunn and Ted Turner were meeting on 
yesterday, and all the other issues, like terrorism, I put that 
at the top of the list.
    Some areas the U.N. can do better in. Some they should be 
kept out of. But we have three choices with the U.N. Abandon 
it. In which case we will lose more than we gain. Leave it 
alone. In which case it will be an inefficient organization. Or 
reform it as Helms-Biden legislation set out to do.
    And for me that is an easy choice. Since the U.N. exists, 
weakening it weakens us. And I would hope to strengthen it. And 
again, Senator Hagel, I thank you for your friendship and 
support. I know that is an inadequate answer to a very broad 
sweeping question. But I think there are just some issues the 
U.N. should not try to address. And there are some issues the 
U.N. should be the centerpiece of. And the No. 1 issue for the 
U.N. to get right going forward is peacekeeping.
    Where they succeeded like Mozambique and Namibia, and I 
think they will succeed in East Timor, they get gold stars. 
Where they failed, Somalia, Rwanda and Bosnia, the rest of the 
world ends up either with an insoluble mess--and I might add 
Sudan which was the last hearing I came before you--and we 
cannot afford those messes. And peacekeeping we have only 
started to address with Brahimi and other issues. So in the 
U.N. narrow context, I would focus on peacekeeping.
    Senator Hagel. Thank you.
    Senator Helms. Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you very much. I 
apologize for not being able to be here for the whole time. 
First of all, Mr. Chairman, thank you for your personal efforts 
to try to help create a structure that works. I think this 
committee can take some pride. Perhaps the methodology may have 
ruffled some, but I think the purpose was an important one and 
I think it has resulted in some changes.
    Second, let me welcome you, Mr. Ambassador and join--I have 
not been here for all the comments, but I trust they have been 
as laudatory as I would hope--as they should be. I think you 
really deserve enormous credit for your persistence or 
tenacity.
    I was reading different accounts of how you approached 
this. Some diplomats, I gather, had different ways of 
characterizing it. But you certainly got the job done. And I 
must say what a tough job to bring that many countries together 
and that many different disparate interests where the 
extraordinary pressures financially that every country faces to 
get people to voluntarily step up the way they have is quite 
remarkable. And I think the example of Russia, for instance, 
who obviously is in no economic condition to be doing this. But 
I think for international reasons and for personal political 
reasons, the decision they made is really quite extraordinary.
    So all and all, this is a significant achievement and I 
think it is a great credit to your persistence and the vision 
with which you approach this. But I also say, Mr. Chairman, to 
you, you sort of set the stage, together with Senator Biden and 
the committee.
    I hope it is something that we will certainly accept and 
ratify, recognizing the difficulties of achieving it and 
recognizing the difficulties that exist from many of these 
countries.
    A number of the questions I have wanted to ask I have been 
advised by staff have been asked. So I will get briefed on 
those later.
    Let me ask you if I can, Mr. Ambassador, as you sort of 
wrap up here, would you share with us overall how you think the 
U.N.--maybe this was also asked obliquely or you answered a 
little bit--but how is the U.N. doing in your judgment with 
respect to this issue of reform that has been a concern of this 
committee and of others for some period of time? And what do 
you think are the prospects over the next few years for a 
continuation of those reform efforts?
    Ambassador Holbrooke. Before I answer that, Senator Kerry, 
let me thank you for your personal comments. And with the 
chairman's permission, I would like to embarrass Senator Kerry. 
Because I have mentioned my splendid team. And one of the 
members of that team who is not here today is Senator Kerry's 
sister, Peggy Kerry, who is a very cherished and important 
member of our team and was heavily involved in all these 
efforts. And I promised John I would never mention that, but I 
am going out the door and he cannot stop me now. So I just want 
to put that on the record since I have so many of my team here 
today. Peggy Kerry has been with me from the beginning and has 
played a huge role in our efforts.
    Senator Kerry, on reform, the job is not finished. It will 
never be finished in an organization as diffuse and disparate 
as the United Nations which represents 189 member States. You 
know, to get these resolutions through, we had to have Libya 
and Cuba and Iraq keep silent? They could have wrecked the 
process. Some countries cut separate deals for themselves at 
the last minute which we had to go along with. They did not 
hurt our long-term interest, but they show the problem. There 
are people in the U.N. system that want to fight for individual 
things.
    I will give you an example. In the Brahimi report, they 
called for a third Assistant Secretary General for 
peacekeeping. Now, that is a completely rational proposal. It 
was defeated at the last minute in a closed session for 
completely irrational reasons by junior members of the Advisory 
Committee on the Budget. But we agreed that it would be taken 
up again in May.
    Now, an organization of 500 people, which is the 
Peacekeeping Office, needs more than two deputies. And you need 
to separate out police, military, logistics, planning and 
operations. And they do not have an adequate structure.
    On the other hand, we got the American position for one of 
the other two deputies which is far more important in the 
short-run. Because this committee will now have a point of 
contact in the Peacekeeping Office. And you were out of the 
room when I mentioned who this will be, but it is a person you 
know personally--Mike Sheehan. So to have Mike Sheehan, who has 
worked with your committee on terrorism for so long, up there 
in New York inside the Secretariat will be of enormous value.
    Now, I do not think that anyone who has the honor to be 
U.S. Ambassador to the U.N. should cease to make reform his or 
her highest sustained priority, Mr. Chairman. Helms-Biden is in 
the process of being fulfilled. And you have made an historic 
step forward this morning. But I hope my successor, whoever he 
or she may be, will--in the spirit of Senator Kerry's 
comments--will continue to make reform the highest priority.
    Ambassador Cunningham and Ambassador Hays and their team 
who are seated behind me can continue the road map. We really--
we know a lot more about this than we have time to go into this 
morning.
    They can show you ideas. The ambassadors seated behind them 
have talked about this with us. And I urge you and whoever 
becomes the chairman of the U.N. subcommittee to make this a 
continued effort. I think it is quite right.
    Now, we can argue over the details. And while you were out 
of the room, Senator Kerry, we had a colloquy with Senator 
Lugar about the cap on peacekeeping. And that has to be dealt 
with as a separate issue. But the idea that reform should now 
be accomplished, we have reformed, and now let us go back to 
business as usual, I would emphatically reject. And I would say 
to you and Senator Helms and your colleagues, keep reform on 
the front burner.
    Senator Helms. Well, Mr. Ambassador, we have reached that 
point.
    Senator Kerry. Could I ask one other question if you are 
about to end?
    Senator Helms. Certainly.
    Senator Kerry. Just very quickly. Would you share with us, 
Mr. Ambassador, your perceptions. I think it would be helpful 
for the committee. And you can give us a pretty unvarnished 
view of this. How are we doing in your perception? As you have 
talked to so many of these----
    Ambassador Holbrooke. You mean in the U.N.?
    Senator Kerry. Well, in the U.N. and globally. I mean, as 
you would leave, what is your assessment of how the United 
States is perceived? And I understand that some people here do 
not care that much about it or are not that worried about it. 
But I think it does effect--and you might share with us the 
ways in which it effects what we get done and how we get it 
done.
    Ambassador Holbrooke. Well, I think the United States is in 
better shape at the U.N. now than we were 2 years ago. I think 
we have left a base for our successors to strengthen it 
further.
    Let me share with you a very personal observation. When I 
got to New York, I was told by my colleagues and some of my 
predecessors about how sensitive people are to American 
arrogance and American overbearingness. I have never said this 
publicly before. But your question stimulates it.
    And what I discovered was that since people assume the 
United States is overbearing and arrogant anyway, it is better 
just to say what the U.S. view is, but say it politely.
    The fact that we have six ambassadors, seven if Sir 
Jeremy's Rolls Royce had not broken down on the FDR Drive----
    Senator Kerry. If he was driving a Chevy, we might have a 
shot.
    Ambassador Holbrooke. Absolutely. We are going to give him 
a chit for an American car. The fact that we have six or seven 
ambassadors here today from every region of the world, 
including Ambassador Listre of Argentina who said teasingly are 
the victims of Helms-Biden--I think that was a very generous 
and ironic way of saying that Argentina has made a big 
contribution. The fact that they have come here today to show 
support for Helms-Biden, to show support for reform, and to 
show appreciation of the United States, is a remarkable 
statement.
    On issue after issue, we were told it is hopeless. Israel 
and the regional group, keeping Sudan off the Security Council, 
getting us back on the Budget Committee, we just kept saying, 
well, let us talk about it.
    I know your reference earlier was to my alleged style in 
the negotiations. But in fact, Don Hays did most of the 
yelling, not me, you see. But I got blamed for it.
    The fact is that we did not yell. We just stated our goal 
and worked with people. You cannot achieve things by yelling. 
And one of the things that one of my colleagues said to me was 
very interesting. Several ambassadors said that no previous 
American Ambassador had ever called on them. I made personal 
trips to the Embassies of Antigua and Barbuda, Barbados, the 
Salomon Islands, Papua and New Guinea, Gabon, a lot of smaller 
countries that had never had a one-on-one with the American 
Ambassador before.
    I pledged to Senator Helms that would be my priority. Don 
Hays and his team saw everyone. We made a point of going over 
there. We treated everyone with respect. And finally, we 
reached the level of momentum where countries like Cuba, Lybia 
and Iraq who had historically wrecked anything the United 
States did, just because it was American, realized that the 
other countries did not want it.
    One of the most important people in this who is with us 
today is Ambassador Kumalo from South Africa. Because he not 
only represented one of the great countries in the world, he 
was also the chairman of the Non-Aligned Movement Caucus.
    And when Ambassador Kumalo in his capacity as head of the 
Non-Aligned Movement started saying to other members of the 
Non-Aligned Movement, let us stop the garbage. Let us stop the 
trash talk and just get this done. It made a huge impression.
    Ambassador Valdivieso who is here from Colombia who headed 
the Rio Group did the same thing in that special group.
    So I would leave with you the statement that America should 
be unafraid to say its views, but in a polite way. The charge 
of arrogance was simply not true or we would not have these 
ambassadors with us today.
    But we were persistent. And sometimes to the point of being 
regarded as a little bit obnoxious, but not arrogant. And we 
got the job done. And I think that can be a model. We did not 
win every case, but we got a high enough percentage so that we 
are sitting here today. And we would not be having this hearing 
if it was otherwise I suspect, Mr. Chairman.
    Senator Kerry. Well, Mr. Chairman, thank you very much. And 
I think we ought to thank those ambassadors who have taken the 
time to come down here and particularly thank all of them for 
their cooperative efforts in this. I think it will help us to 
strengthen the U.N. in the long run. And I think we owe them a 
great deal of gratitude.
    Senator Helms. Mr. Ambassador, when I left home this 
morning, my best friend for 59 years, God help us, said to give 
Grandpa Holbrooke her best wishes.
    Ambassador Holbrooke. Thank you.
    Senator Helms. She said, ``You are going to miss him.'' Joe 
Biden just leaned over and said, ``We are going to miss this 
guy.'' And that is about as good a tribute as one could ask for 
from a Senate committee.
    You are going to get some questions in writing from 
Senators who are not able to be here. And they, as I, will 
thank you for the job you have done. Since we started out, 
nobody could have been more bipartisan than you. You have been 
thoughtful. You have been innovative. You have been very kind 
all the way. And I have enjoyed my relationship with you. And I 
think all Senators on this committee, all Senators period, did 
too.
    And in any case, gentlemen, I am going to do something 
again I guess that has never been done. But I want us to stand 
and give this gentleman a round of applause and include in it 
every one of the visiting ambassadors.
    Senator Biden. That is a first.
    [Standing ovation]
    Senator Biden. Mr. Chairman, before we leave, not only is 
that a first, but I want to tell the Ambassador's staff it is 
fortunate he is leaving. Otherwise, he would be insufferable 
from this point on.
    Senator Helms. There being no further business to come 
before the committee, we stand in recess.
    [Whereupon, at 12:35 p.m. the hearing was adjourned.]
                              ----------                              


             Additional Questions Submitted for the Record


   Responses of Ambassador Holbrooke to Additional Questions for the 
                Record Submitted by Senator Gordon Smith


                      SECURITY COUNCIL RESOLUTIONS

    Question. For many years, the annual series of biased and one-sided 
resolutions in condemnation of our ally, Israel, in the General 
Assembly has been tolerated by the United States because it has been 
viewed as a ritual ``blowing off steam'' or ``venting of frustrations'' 
by Arab nations frustrated by Israel's position in the Middle East. 
Calling such thinking a ``completely nonsensical rationalization,'' you 
stated, ``What the United Nations then becomes is kerosene on the fire, 
because the Arabs report to their media that the world has condemned 
Israel. People get even more fired up, and the solution gets further 
away, and the institution gets hurt.'' You follow these comments by 
advocating a ``frontal assault'' on the conventional wisdom about these 
biased resolutions, stating, ``We need to shine floodlights on it and 
bring it out into the open in order to prevent the United Nations from 
being abused.''
    Like in the General Assembly, there is often an ``automatic 
majority'' against Israel in the Security Council, but the U.S. has the 
ability in this forum to unilaterally block initiatives that are 
harmful to the cause of peace and the security of our ally, Israel.
    Ambassador Holbrooke, I would like for you to elaborate on these 
comments, for the benefit of the administration in-transition, one that 
is sure to be faced with the same efforts to corner Israel in the 
United Nations, like in years' past.
    With the knowledge that your comments today will be read by your 
successor, how would you advise our future Ambassador to use the veto 
power of the United States against the numerous one-sided crusades 
against Israel in the Security Council, to prevent this forum from also 
being used as ``kerosene on the fire?''

    Answer. No country should doubt that we will use the veto when 
necessary to prevent ill-advised and harmful actions proposed in the 
Council regarding Israel and the Middle East situation. Four of the 
last five vetoes the U.S. has had to cast have involved Israel. But no 
country--least of all the U.S.--enjoys the rancor and lost comity that 
exercising a veto brings. Based on the serious efforts this 
administration undertook to make real progress in the Middle East peace 
process--including sustained engagement with both Israeli and 
Palestinian leadership--we have seen some reduction in the inclination 
of Council members to suggest one-sided actions that would undermine 
peace efforts. The best example may be the recent effort by some to 
gain Council agreement to establish an international observer force to 
the West Bank and Gaza Strip, without the agreement of both sides. 
While such an approach could have real value in the context of a joint 
agreement between the affected parties, it would have been ill-advised 
and unhelpful for the Council to call for its initiation in the absence 
of a peace agreement. Accordingly, we were able to persuade others on 
the Council to join us in preventing the resolution from obtaining the 
minimum number of votes necessary to pass. That was a good outcome--far 
better than a veto--and I trust the next administration will continue 
efforts, both in the region and in the Council, to ensure that one-
sided proposals in the Council--the sortthat make us consider a veto--
become rare to the point of extinction.

                      GENERAL ASSEMBLY RESOLUTIONS

    Question. To move to an area where the United States can have less 
immediate but important impact, I'd like to discuss with you the UN 
General Assembly and the previously mentioned anti-Israel resolutions 
that are approved annually at the expense of our interests in the 
Middle East.
    As you make clear, we must change our attitude toward these 
resolutions--rather than simply voting against them, we must take a 
concerted effort to stop these anti-Israel resolutions altogether, lest 
we return, as you warn, to the days of ``Zionism equals racism.''
    How can your successor work to, as you put it, prevent the abuse of 
the UN at the hands of Arab nations? How can the U.S. stop this 
exploitation of the United Nations?

    Answer. The most important thing we or the next administration can 
do is to end any lingering sense that blatantly anti-Israel actions by 
the General Assembly are harmless steam-venting efforts. Even purely 
rhetorical actions have consequences, both in threatening what will 
surely remain an active pursuit for peace in the region, as well as the 
working environment in the UN.
    Certainly the next administration can assist this with an active 
pursuit of real peace in the region.
    But it also will help to confront responsible GA members openly 
about anti-Israel bias and demand they reconsider. Our effort to get 
Israel into a regional group at the UN is such an example. Israel's 
exclusion from any group--where a country becomes eligible for election 
to UN bodies--was one of the UN's ugly anachronisms. The Department and 
I worked hard with a number of countries to turn around the prevailing 
attitude that it was too hard to do the right thing, or that doing the 
right thing would anger the Arabs. Changing expectations worked: Israel 
was invited in May to join the Western European and Other Group, the 
group in which the U.S. participates.


</pre></body></html>
